           U.S. Department of the Interior
               Office of Inspector General




                    American Samoa Government Building, Pago Pago




 American Samoa: Top Leadership
 Commitment Needed to Break the
 Cycle of Fiscal Crisis



Report No. P-IN-AMS-0117-2003                    September 2005
                 United States Department of the Interior

                                  Office of Inspector General
                                       Western Region
                                           Federal Building
                                    2800 Cottage Way, Suite E-2712
                                       Sacramento, California 95825



                                                                                     7430
                                                                       September 19, 2005


Mr. David B. Cohen                                     Honorable Togiola T.A. Tulafono
Deputy Assistant Secretary                             Governor
 for Insular Affairs                                   American Samoa Government
Office of Insular Affairs                              Pago Pago, American Samoa 96799
U.S. Department of the Interior
1849 C Street, NW
Washington, D.C. 20240

Dear Deputy Assistant Secretary Cohen and Governor Togiola:

        The enclosed report American Samoa: Top Leadership Commitment Needed to
Break the Cycle of Fiscal Crisis, Report No. P-IN-AMS-0117-2003, presents the results
of our audit of the American Samoa Government’s 2001 Fiscal Reform Plan. Our audit
objective was to determine whether the American Samoa Government (ASG)
implemented the 2001 Reform Plan and related agreements. Our scope and methodology
are detailed in Appendix 1 of the report.

        Based on the July 12, 2005 response from the Deputy Assistant Secretary for
Insular Affairs, we consider recommendations to the Office of Insular Affairs (OIA) to be
resolved and implemented. The response stated that OIA had recently designated ASG as
a “high-risk” grantee under 43 CFR 12.52, was aggressively monitoring the progress of
the reform plan, and had increased reporting requirements and restricted access to funds.
OIA also is developing a plan that identifies the actions ASG must complete to remove
the high-risk designation. The April 22, 2005 response from the Governor of American
Samoa, however, disagreed with our recommendations and concluded, “This ASG has
already accomplished Fiscal Reform, and has taken the steps recommended in this audit.”
We noted that this conclusion was counter to the Deputy Assistant Secretary’s actions
and his June 9, 2005 letter to the Governor specifying the conditions ASG must meet to
remove the high-risk designation. Despite OIA taking decisive and aggressive actions to
closely monitor and oversight ASG’s progress in meeting the requirements of the Reform
Plan and related agreements, we consider the recommendations addressed to the
Governor to be unresolved and request a response to this report by October 21, 2005, that
includes the information in Appendix 7.

      The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented.
Accordingly, this report will be included in our next semiannual report.

       We appreciate the cooperation shown by the ASG and OIA during our audit. If
you have any questions regarding this report, please call me at (916) 978-5653.

                                            Sincerely,



                                            Michael P. Colombo
                                            Regional Audit Manager

Enclosure

cc:    Nikolao Pula, Director, Office of Insular Affairs
       Keith Parsky, Audit Liaison Officer, Office of Insular Affairs




                                            2
Executive Summary
American Samoa Fiscal Reform
Top Leadership Commitment and Adoption of Comprehensive
Long-Range Plan Needed to Break the Cycle of Fiscal Crisis

                  For the past two decades, the ASG has faced significant financial
                  crises, which have yet to be corrected by a series of fiscal reform
                  efforts. ASG has not controlled expenditures, produced timely
                  and accurate financial reports, or taken effective corrective
                  actions on deficiencies identified by the Office of Inspector
                  General (OIG), the Government Accountability Office (GAO),
                  and independent public accountants. The most recent reform
                  was the Interim Fiscal Year 2001 Reform Plan (2001 Reform
                  Plan). However, without the commitment of top management in
                  the ASG and the Department of the Interior’s OIA and the
                  adoption of best practices that are critical to the success of any
                  financial reform, the plan will be the latest in this series of failed
                  efforts.

                  The 2001 Reform Plan included only goals designed to eliminate
                  a deficit in the short run and did not address long-term reform
                  that would lead to lasting financial stability. However, long-term
                  reform was addressed in the 1995 Immediate Term Financial
                  Recovery Plan (1995 Recovery Plan), developed by OIA and
                  ASG. This plan recognized that permanent fiscal recovery was
                  based on a balanced budget that included all ASG entities and on
                  a framework for long-term public sector reform, private sector
                  development, and overall economic growth. The 1995 Recovery
                  Plan advocated aggressive revenue enhancement and cost-cutting
                  measures, while exploring options for restructured current
                  operations, privatization, expanded economic development, and
                  direct foreign investment. However, ASG failed to fully
                  implement the 1995 Recovery Plan, and its fiscal situation
                  continues to deteriorate. We believe that developing a
                  comprehensive and long-range reform plan, using the 1995
                  Recovery Plan as a framework, is the essential first step toward
                  true fiscal reform in American Samoa.

                  Successful implementation of any fiscal reform plan, however,
                  depends on the commitment of OIA and ASG management to
                  drive the transformation to achieve fiscal self-sufficiency. In a
                  July 2003 report, GAO outlined key practices and steps that are
                  essential to the success of any organization in transforming
                  business cultures and practices. These key practices include a


                                       i
transformation process driven by top management, an
implementation team dedicated to managing the transformation,
implementation goals and timelines to build momentum and
show progress from day one, and a communication strategy to
create shared expectations and report progress to key
stakeholders.

We believe that without an immediate course correction that
embodies these key practices, the 2001 Reform Plan will fail to
break ASG’s cycle of fiscal crisis. Our recommendations focus
on the need for (1) an active partnership between OIA and ASG
to develop a comprehensive fiscal reform plan and adopt
successful key practices and steps in achieving fiscal
accountability and stability and (2) OIA to coordinate with other
agencies providing federal financial assistance to resolve cross-
cutting management control deficiencies and hold ASG
accountable if agreed upon fiscal reform goals and milestones are
not met.




                   ii
Contents
                                                                                                                                            Page

American Samoa: A History of Fiscal Crisis......................................................................1

Results of Audit: Top Management Commitment and Comprehensive
  Plan Needed to Realize True Fiscal Reform...................................................................5
   Comprehensive Planning ..............................................................................................5
   Commitment of Key OIA and ASG Managers.............................................................6
   Key Shortcomings in Implementing 2001 Reform Plan ..............................................9
   OIA’s Role ..................................................................................................................12
Recommendations..............................................................................................................14
OIA and Governor Responses and OIG’s Reply ...............................................................15

Appendices
    1    Objective, Scope, Methodology, and Prior Audit Coverage ...........................17
    2    Chronology of ASG Fiscal Reform Efforts ....................................................20
    3    GAO Key Practices and Implementation Steps ...............................................21
    4    OIA Response ..................................................................................................22
    5    ASG Response .................................................................................................28
    6    OIA’s High-Risk Designation..........................................................................32
    7    Status of Audit Recommendations...................................................................34

Abbreviations
Art............................................................................................................................................Article
ASG ................................................................................................... American Samoa Government
CAFR ............................................................................... Comprehensive Annual Financial Report
CFR ...................................................................................................... Code of Federal Regulations
DM ..................................................................................................................Departmental Manual
DOI...........................................................................................................Department of the Interior
Exec. Order.............................................................................................................. Executive Order
Fed. Reg................................................................................................................... Federal Register
FY.................................................................................................................................... Fiscal Year
GAO ..................................................................Government Accountability Office (United States)
Medical Center .........................................American Samoa Medical Center Authority – Lyndon B.
                                                                                                     Johnson Tropical Medical Center
MOA..................................................................................................... Memorandum of Agreement
MOU............................................................................................... Memorandum of Understanding
1995 Recovery Plan.....................................Immediate Term Financial Recovery Plan Issued 1995
OIA..................................................................Office of Insular Affairs, Department of the Interior
OIG.............................................................Office of Inspector General, Department of the Interior
OMB........................................................................................... Office of Management and Budget
TOFR.............................................................................. Territorial Office of Fiscal Reform (ASG)
2001 Reform Plan............................................................Interim Reform Plan for Fiscal Year 2001
U.S................................................................................................................................ United States
U.S.C. ..................................................................................................................United States Code



                                                                        iii
This page intentionally left blank
American Samoa: A History of Fiscal Crisis
                              American Samoa is a U.S. territory in the South Pacific Ocean
                              about 2,300 miles southwest of Hawaii. Comprising a group of
                              principally five volcanic islands and two coral atolls, the island
                              area is about 76 square miles, with a population of about
                              58,000 people. OIA is responsible for carrying out the Secretary
                              of the Interior’s responsibilities in U.S.-affiliated insular areas.
                              OIA’s strategies to accomplish economic self-sufficiency for the
                              insular areas center on improving insular government financial
                              management practices and increasing both economic
                              development and federal responsiveness to the unique needs of
                              island communities striving for self-sufficiency.

                              In recent years, U.S. Congressional and OIA concerns about
                              American Samoa have focused on its fiscal situation, which
                              cannot be improved without American Samoa overcoming
                              significant obstacles. First, opportunities for expanded economic
                              development are restrained by American Samoa’s remote
                              location, limited transportation, and devastating hurricanes.
                              American Samoa’s primary industry is tuna fishing and
                              processing. Two tuna canneries and the associated retail and
                              service enterprises employ about two-thirds of the work force.
                              The remaining one-third is employed by ASG. Tourism is
                              developing, but has not yet become a major industry that
                              significantly contributes to the economy.

                              Second, American Samoa does not generate sufficient local
                              revenues to fund its general government operations. To help
                              make up its annual revenue shortfall, ASG depends on grants
                              from the United States, including an operations grant
                              administered by OIA. In fiscal year 2003, this grant totaled
                              about $23 million: $15.2 million to the primary government and
                              $7.7 million to the American Samoa Medical Center Authority –
                              Lyndon B. Johnson Tropical Medical Center, the only healthcare
                              center available in American Samoa.

                              A third and critical obstacle to American Samoa’s financial well
                              being is an ineffectual financial management system. The
                              system’s deficiencies are significant and longstanding and have
                              been well documented by our office, GAO,1 and independent



1
    See Appendix 1, pages 17 and 18, for a discussion of OIG and GAO audits.


                                                     1
                                                                     public accountants. The deficiencies center primarily on ASG’s
                                                                     failure to make the following improvements:

                                                                     ¾ Reduce budget deficits through increased revenue collections
                                                                       and controlled expenditures,

                                                                     ¾ Generate timely and accurate financial reports that can be
                                                                       used to make informed decisions, and

                                                                     ¾ Correct significant internal control weaknesses that increase
                                                                       the risk of fraud, waste, and mismanagement.

                                                                     ASG’s inability to correct these deficiencies has resulted in
                                                                     continued general fund deficits, which have contributed to the
                                                                     government’s cycle of fiscal crises. From 1980 to 1991, ASG
                                                                     operated at a deficit in its general fund for all but two fiscal
                                                                     years. As shown in Figure 1, this trend continued through the
                                                                     1990s, with general fund deficits occurring from 1994 to 2001.


                                                               General Fund Trends FY 1994 - 2003
                                     $50.0

                                     $40.0

                                     $30.0
General Fund Balance (in millions)




                                                                                                                          $23.6

                                     $20.0

                                     $10.0                                                                       $5.5
                                                                                                                                     General Fund
                                      $0.0

                                                                                                                                     Adjusted General Fund
                                     -$10.0
                                                                                                                                     Balance (without
                                                                                                                                     insurance proceeds)
                                     -$20.0 -$18.2                                                               -$15.9     -$14.4
                                                   -$19.2
                                                                                                        -$24.6
                                     -$30.0                                    -$28.1 -$28.3
                                                            -$31.4                             -$32.0
                                     -$40.0

                                                                      -$44.3
                                     -$50.0
                                              1994   1995    1996      1997     1998   1999     2000     2001    2002      2003
                                                                                Fiscal Year

                                                                                                                                                    Figure 1

                                                                     Although ASG recorded general fund surpluses in fiscal years
                                                                     2002 and 2003, it is important to note that the surpluses were due




                                                                                                   2
                             to $38 million2 in long-awaited insurance settlement proceeds for
                             hurricane damage that occurred in 1991. Without these
                             proceeds, ASG would have reported a general fund deficit of
                             about $15.9 million and $14.4 million in fiscal years 2002 and
                             2003, respectively.

                             Over the years, OIA has worked with ASG in attempting
                             numerous fiscal reform efforts. None of these efforts have
                             succeeded. Progress has been hindered because top OIA and
                             ASG leaders have not fully committed to correcting the
                             longstanding deficiencies in ASG’s financial management
                             system. As a result, ASG operates in a constant state of fiscal
                             crisis and moves from one failed fiscal reform effort to another.
                             The chronology of failed fiscal reform efforts since 1988 is
                             described in Appendix 2.

                             ASG’s latest fiscal reform effort, the 2001 Reform Plan, was
                             precipitated by ASG’s inability to pay outstanding debts, thereby
                             initiating another round of reform. In 1999, Congress responded
                             to ASG’s financial distress by authorizing an $18.6 million loan
                             ($14.3 million to liquidate outstanding debt and $4.3 million for
                             fiscal reform). As conditions of the loan, ASG took the
                             following actions:

                             ¾ Agreed to pay off the $18.6 million loan with proceeds from
                               the Master Settlement Agreement3 and signed a
                               Memorandum of Understanding (MOU) with the Secretary of
                               the Interior in November 2000. The MOU described
                               procedures ASG must follow in discharging its debts and
                               implementing fiscal reforms.

                             ¾ Developed the 2001 Reform Plan and signed a Memorandum
                               of Agreement (MOA) with the Deputy Assistant Secretary of
                               the Interior for Insular Affairs in August 2002 to implement
                               the plan. Under the MOU and MOA, release of the
                               $18.6 million loan was contingent on ASG’s taking the
                               following actions:

                                 o Liquidating the outstanding debt of $14.3 million.

2
  ASG received the $38 million in two installments: $21.4 million in fiscal year 2002 and $16.4 million in
fiscal year 2003.
3
  In November 1998, four of the nation’s largest tobacco companies negotiated and signed an agreement,
known as the Master Settlement Agreement, with the attorneys general of 46 states, the District of
Columbia, and 5 U.S. territories. Under the agreement, the tobacco companies make annual payments in
perpetuity as reimbursement for health care costs related to tobacco use. ASG assigned these payments to
the Department of the Interior.



                                                    3
   o Instituting a series of revenue enhancements, expenditure
     savings measures, and collection improvements,
     beginning in fiscal year 2001 and continuing in fiscal
     year 2002, to yield a balanced budget for fiscal year 2003
     and beyond.

   o Enacting fiscal reform policies and procedures to develop
     realistic and adequate budgets and respond to revenue
     shortfalls or budget overruns in a timely and responsible
     manner.

   o Completing all audits required by the Single Audit Act of
     1984.

We conducted our audit from October 2003 to September 2004
to determine whether ASG actually implemented the 2001
Reform Plan. The scope and methodology of our audit are
detailed in Appendix 1. It should be noted that in September
2003, ASG submitted revisions to the 2001 Reform Plan. OIA
did not accept these revisions because they did not include
baseline financial data, explanations for changes from the
approved 2001 Reform Plan, or timetables for completing fiscal
reforms. OIA did accept revisions submitted in July 2004, which
compared projected and actual revenues, included expenditure
and collection improvements, and provided an action plan and
milestones for fiscal reform activities.




                   4
Results of Audit:
Top Management Commitment and Comprehensive
Plan Needed to Realize True Fiscal Reform

               The 2001 Reform Plan was designed primarily to solve ASG’s
               short-term fiscal crisis and noticeably lacked two components
               essential to correcting long-standing financial management
               deficiencies and creating lasting fiscal reform. The first
               component is a comprehensive plan that addresses the correction
               of long-standing financial deficiencies and encompasses the full
               range of ASG operations. No matter how well designed,
               however, such planning will not succeed without the second
               component; that is, the commitment of top management in both
               OIA and ASG to achieving long-term fiscal solvency for
               American Samoa and its citizens. A strong, dedicated, and active
               partnership between OIA and ASG will ultimately be the
               requisite factor in breaking the cycle of fiscal crisis and failed
               reforms.

Comprehensive Planning
               The 2001 Reform Plan addressed only short-term goals and did
               not include the full range of government operations. The plan,
               for example, did not require participation and coordination from
               key ASG officials, such as those in the Treasury, Tax, and
               Procurement Offices, and the Medical Center. As shown in the
               following examples, inclusion of the Medical Center and the
               Treasury Office was essential to long-term fiscal reform.

               ¾ The fiscal condition of the Medical Center is directly tied to
                 the overall financial health of ASG. For the past 6 years, the
                 Medical Center has experienced an average operating loss of
                 $2.2 million a year, despite an annual Departmental operating
                 grant of $7.7 million. Consequently, by February 2004, the
                 financial condition of the Medical Center had deteriorated to
                 the point that ASG itself provided a $5 million bailout loan
                 and required the Medical Center to develop and submit a
                 fiscal reform plan.

               ¾ The 2001 Plan actually omitted ongoing and planned fiscal
                 reforms within the Treasury Office to facilitate reliable and
                 timely financial reporting. These planned reforms included
                 major upgrades to the financial management information




                                   5
                system, development of new standard operating procedures,
                and re-assessment of Treasury staff levels.

             We believe that developing a comprehensive fiscal reform plan,
             using the 1995 Recovery Plan as a framework, is the essential
             first step toward true fiscal reform. As differentiated from the
             2001 Reform Plan, the 1995 Recovery Plan focused on short-
             and long-term fiscal reforms for the entire government,
             including the Medical Center, by (1) balancing the budget in the
             immediate term while simultaneously establishing a framework
             for long-term public-sector reform, private-sector development,
             and overall economic growth; (2) ensuring that revenues
             collected for services were consistent with the cost of providing
             those services over time; (3) outlining long-term, aggressive
             revenue-enhancing and cost-saving measures; (4) outsourcing
             activities best handled outside the government; and
             (5) recommending options for restructuring current operations, as
             well as opportunities for privatization, economic development,
             and direct foreign investment.

             During the course of our audit, we briefed top ASG officials, the
             Director of OIA, and members of the Director’s staff on the
             results of our audit. ASG initiated corrective actions by
             submitting an action plan to OIA. The action plan included
             planned and ongoing fiscal reforms for the entire ASG
             operations, including the American Samoa Power Authority and
             the Medical Center and also incorporated elements from the 1995
             Recovery Plan, such as reducing payroll, increasing hospital and
             user fees, and outsourcing functions. The action plan, however,
             did not include clear benchmarks for measuring financial
             performance. In addressing reduced payroll, for example, the
             action plan simply stated, “review in detail many of the
             government offices to determine whether they can be reduced in
             size.” Continued efforts are therefore needed by OIA and ASG
             to develop a comprehensive fiscal reform plan with clear
             financial benchmarks and details.

Commitment of Key OIA and ASG Managers
             Development of a comprehensive fiscal reform plan alone will
             not ensure success. Successful implementation of fiscal reform
             ultimately depends on the commitment and participation of key
             OIA and ASG managers to drive the transformation of achieving
             fiscal self-sufficiency. To ensure true reform and break the cycle




                                 6
                           of fiscal crisis, OIA and ASG should apply the key practices
                           outlined by GAO in its July 2003 report4.

                           At a minimum, these practices should include the following:

                           ¾ The Deputy Assistant Secretary for Insular Affairs and the
                             Governor of the American Samoa Government must drive
                             the transformation.

                           ¾ A dedicated, high-performing implementation team should
                             manage the transformation process.

                           ¾ A performance management system should be used to define
                             responsibility and assure accountability for change.

                           ¾ The implementation plan should include goals, timelines, and
                             regular progress reports.

                           ¾ A communications strategy should be developed to report
                             progress to key stakeholders and employees.

                           GAO identified its key practices by looking at a variety of
                           organizations that had undergone major change and successfully
                           transformed their business cultures and practices. (See
                           Appendix 3 for the full text of these practices.)

                           Implementation of such a comprehensive fiscal reform plan
                           would span several years and require considerable effort,
                           commitment, and resources. However, application of these key
                           practices is essential to ensure transparency, accountability,
                           integrity, and continuity in bridging political changes over the
                           years. We compared four key practices with OIA and ASG’s
                           performance and found that these practices were not applied in
                           developing and implementing the 2001 Reform Plan (see
                           Table 1).




4
 GAO: Results-Oriented Cultures – Implementation Steps to Assist Mergers and Organizational
Transformations, GAO-03-669, July 2003.


                                                 7
                                Table 1
        Comparison of Selected GAO Key Practices and OIA/ASG
                             Performance

  GAO Key Practice                            OIA/ASG Performance

Ensure top leadership       OIA and ASG top leadership did not drive the fiscal reform
drives the                  process. Top leaders must articulate a succinct and
transformation.             compelling reason for change, demonstrate conviction for the
                            change, and report on early successes. The manager of
                            ASG’s Territorial Office of Fiscal Reform (TOFR) was
                            responsible for developing and managing the fiscal reform
                            process. OIA top management officials were not actively
                            involved in the fiscal reform process.

Dedicate an                 OIA and ASG did not establish a dedicated high-performing
implementation team to      implementation team to manage the implementation process.
manage the process.         The “team” consisted of the manager of TOFR, who managed
                            the process only on a part-time basis because he was assigned
                            other responsibilities within ASG. OIA staff was not an
                            integral part of the implementation team and participated on
                            an ad hoc basis because they were assigned other
                            responsibilities within OIA.

Set implementation          OIA and ASG did not develop a comprehensive
goals and a timeline to     implementation plan that included all short- and long-term
build momentum and          goals for ASG and component units and a timeline for
show progress from day      accomplishing the goals.
one. Goals and timelines
are essential because the
process could take years
to complete.


Establish a                 OIA and ASG did not make public the final reform goals or
communication strategy      report related progress to key stakeholders, such as ASG
to create shared            senior officials and employees, American Samoa citizens,
expectations and report     Department of the Interior senior officials, and Congress.
related progress.


               The failure to apply these key, or similar, practices to ensure a
               hands-on commitment to fiscal reform has resulted in the failure
               of all previous reform efforts (see Appendix 2). With regard to
               the 1995 Recovery Plan, OIA stated in its fiscal year 2004
               budget justification that after the November 1996 gubernatorial
               election in American Samoa, a new Governor took office and
               pledged to take the necessary steps to return the government to
               fiscal health and stability. That pledge was never carried out,
               however, and ASG’s financial situation remains poor. Thus, we


                                      8
                               believe that ASG’s failure to fully achieve the goals of the 2001
                               Reform Plan is witness to the necessity of a committed, hands-on
                               approach by top OIA and ASG leaders.

Key Shortcomings in Implementing 2001 Reform Plan
                               The 2001 Reform Plan set only short-term goals to address
                               ASG’s immediate fiscal crisis. In addition to providing for the
                               immediate liquidation of ASG debts that were outstanding as of
                               April 1999, its goals included enhancing revenue and controlling
                               expenditures to balance the budget and completing seriously
                               delinquent financial statements by fiscal year 2003. Although
                               ASG liquidated its outstanding debt with the $14.3 million5 in
                               debt relief provided by Congress and reported a balanced budget
                               for 2003, it did not meet expenditure targets, enact procedures
                               for developing realistic budgets, or meet deadlines for financial
                               statements or single audit reports.

                               Expenditure Targets and Budget Overruns
                               The 2001 Reform Plan projected a $12 million savings for fiscal
                               year 2003 through a combination of $10.9 million in enhanced
                               revenues and $1.1 million in reduced expenditures. According to
                               ASG’s unaudited general fund revenue and expenditure report,
                               ASG met revenue targets but did not control expenditures, which
                               in fiscal year 2003 were $5.7 million more than in fiscal year
                               2001. Fiscal year 2004 expenditures were expected to be
                               $9.2 million more than those for fiscal year 2001.

                               Expenditures increased, in part, because ASG continued its
                               practice of not developing realistic budgets and not enforcing the
                               budgetary controls stipulated in ASG law, which prohibits
                               expenditures beyond funds appropriated or allotted to
                               government departments. As shown on Table 2, expenditures of
                               governmental departments from fiscal years 1998 through 2003
                               exceeded appropriations by $25.1 million.




5
  As of December 2001, ASG’s TOFR had drawn down the entire $14.3 million designated by Congress for debt
liquidation. TOFR developed alternative procedures to validate the debt prior to payment because ASG’s accounting
records were unreliable. The ASG independent certified public accountant had disclaimed an opinion on the fiscal year
1998, 1999, and 2000 general purpose financial statements because of significant internal control failures related to
(1) preventing or detecting misstatements of accounting information, (2) the lack of review and approval of
transactions, and (3) inadequate management oversight. We reviewed TOFR’s procedures and determined they were
adequate.


                                                         9
                                                 Table 2
                                  Expenditures Exceeding Appropriations
                                                     No. of                  Budget Overruns
                          Fiscal Year             Departments                   (millions)
                             1998                     35                          $ 8.6
                             1999                     28                             3.7
                             2000                     27                             2.6
                             2001                     26                             5.1
                             2002                     15                             1.1
                             2003                     22                             4.0
                             Total                                                $25.1

                          Source: ASG’s (1) Comprehensive Annual Financial Report (CAFR) for fiscal years
                          1998, 1999, and 2000, issued February 2004; (2) CAFR for fiscal year 2001, issued June
                          2004; and (3) quarterly reports for 2002 and 2003


                            A primary goal of the revenue enhancements and expenditure
                            saving measures was to balance the budget and eliminate the
                            general fund deficit, which has been a continuing problem (see
                            Figure 1). Although ASG ostensibly achieved this goal in fiscal
                            year 2003 by reporting a $23.6 million surplus, the surplus was
                            the result of $38 million in hurricane insurance settlements
                            received in fiscal years 2002 and 2003 for damages incurred in
                            1991. Without these settlements, ASG would have reported a
                            continuing general fund deficit of about $15.9 million and
                            $14.4 million in fiscal years 2002 and 2003, respectively.

                            CAFRs and Single Audit Reports
                            ASG also did not complete its CAFRs and single audit reports
                            for fiscal years 2002 and 2003, and the CAFRs and single audits
                            completed for fiscal years 1998 through 2000 were issued with
                            disclaimed opinions because of significant findings, questioned
                            costs, and internal control failures. Although the requirements6
                            for completing the requisite reports are incorporated in the
                            annual ASG operations grant, OIA has not enforced them, with
                            the result that ASG has not complied with these requirements for
                            several years. As shown in Table 3, ASG failed to meet any of
                            the deadlines agreed to in the 2001 Reform Plan.



6
 Under the Single Audit Act of 1984, as amended, entities expending $300,000 or more annually in federal
awards must complete a single audit within 9 months of fiscal year end. Under the Omnibus Territories
Act of 1982, the Governor of American Samoa is required to produce the CAFR within 4 months of fiscal
year end.


                                                     10
                              Table 3
           Submission of CAFRs and Single Audit Reports
                      (as of September 2004)
                                                  Date Issued
 Fiscal Year       Due Date:         Agreed-on
   Ending            CAFR/          Date in 2001                   Single
September 30      Single Audit      Reform Plan       CAFR         Audit

   1998              1/1999           12/2002         2/2004       8/2003
                      6/1999
   1999              1/2000           12/2002         2/2004       8/2003
                      6/2000
   2000              1/2001            5/2003         2/2004       8/2003
                      6/2001
   2001              1/2002            5/2003         6/2004       6/2004
                     6/2002
   2002              1/2003            9/2003       Not Issued       Not
                      6/2003                                       Issued
   2003              1/2004            6/2004       Not Issued       Not
                      6/2004                                       Issued


          The CAFR and single audit report completed for fiscal year 2001
          were issued with a qualified opinion because the independent
          public accountants were unable to satisfy themselves as to the
          (1) accuracy of the beginning general fund balance; (2) amount
          of compensated absences, claims, and other liabilities;
          (3) amount due to and from other funds; (4) amounts due from
          other governments and advances from grantors; (5) physical
          existence and cost of fixed assets; (6) financial position and
          activity of the American Samoa Telecommunication Authority
          and Medical Center; and (7) amounts due from other
          governments and advances from grantors of the American Samoa
          Community College. Until these weaknesses are corrected,
          neither OIA nor ASG can ever ensure fiscal accountability and
          stability, and the likelihood of fraud, waste, and mismanagement
          will increase.

          We also identified ASG’s failure to meet the short-term goals of
          the 2001 Reform Plan in our March 2002 report Management
          Challenges for Insular Area Governments – An Opportunity for
          Improvement, OIG No. 2002-I-0017 (Appendix 1), which
          included recommendations that ASG enforce existing
          prohibitions against overspending, implement the procedural
          changes necessary to produce reliable and timely financial
          statements and single audit reports, and follow up on past audit


                               11
                             recommendations to stabilize its financial system. Although
                             ASG is currently revising the 2001 Reform Plan in concert with
                             OIA, the chances of success for this revised plan are uncertain.
                             What is certain is that the need for federal assistance to ASG will
                             continue and that active OIA participation in financial
                             governance is imperative to correct ASG’s long-standing
                             financial deficiencies.
    OIA’s Role
                             OIA has historically seen its role as providing technical
                             assistance to and advising ASG. However, the history of failed
                             fiscal reform efforts and ASG’s failure to fully implement the
                             2001 Reform Plan point to the need for a new approach.

                             Based upon the authority set forth in 48 U.S.C §1661(c) and the
                             delegation of responsibilities described in Executive Order
                             10264, which has been acknowledged in ensuing Secretary’s
                             Orders and Departmental Manual Provisions,7 the Secretary
                             continues to have full authority and ability to take a proactive
                             role in the administration of American Samoa. The Samoan
                             Constitution, approved by the Secretary in 1967, provides for an
                             elected Governor who is given “general supervision and control
                             of all executive departments, agencies and instrumentalities of
                             the Government of American Samoa.”8 Even though the
                             Secretary approved self-governance subject to Departmental
                             oversight, the ultimate responsibility for civil, judicial, and
                             military power in American Samoa remains with the President of
                             the United States, acting through the Secretary, until Congress
                             provides further for the civil government of American Samoa.
                             Stated differently, with few exceptions, the Secretary has plenary




7
  All civil, judicial, and military power to govern the Territory of American Samoa is vested in the
President of the United States “and shall be exercised in such manner as the President of the United States
shall direct.” See 48 U.S.C. §1661(c). Since 1951, the President has delegated his authority with regard to
American Samoa to the Secretary of the Interior. See Exec. Order No. 10264, 16 Fed. Reg. 6417 (June 29,
1951): Secretary’s Order No. 3009, §5, DOI (Sept. 13, 1977), as amended by Secretary’s Order No. 3009,
Amendment No. 1, DOI (Nov. 3, 1977) and as further amended by Secretary’s Order No. 3009,
Amendment No. 2, DOI (June 27, 1978); see also 575 DM 1.2(B) and 575 DM 3.3(B).
8
  American Samoa Constitution, art. IV, §7.


                                                    12
                            authority over most affairs in American Samoa, except where
                            otherwise limited by statute9 or Executive Order.10

                            OIA recently implemented an important initiative—the
                            competitive allocation system—to improve fiscal performance in
                            the insular areas. Under this system, OIA allocates $28 million
                            in mandatory capital improvement funding to insular areas based
                            on established competitive criteria that include demonstrated
                            ability to (1) exercise prudent financial practices, (2) select and
                            administer high priority projects, and (3) meet federal grant
                            requirements. OIA also recently created the position of
                            Accountability and Insular Policy Specialist to promote
                            accountability for federal grants in the insular areas. We believe
                            these kinds of initiatives, together with collaboration with other
                            federal agencies and ASG, are the key to OIA fulfilling its
                            responsibility to improve the financial management practices of
                            ASG. OIA must assume leadership in coordinating efforts to
                            correct single audit cross-cutting issues among federal agencies,
                            such as the Departments of Agriculture, Education, Health and
                            Human Services, Housing and Urban Development, Labor, and
                            Transportation, which also provide financial assistance to ASG.

                            In a recent audit, GAO11 cited the need for exactly this kind of
                            improved coordination among federal agencies to ensure
                            accountability over federal grants awarded to ASG. GAO
                            concluded that while federal agencies relied on single audit
                            reports to assess the accountability for funds awarded to ASG,
                            they were slow to respond when ASG failed to complete these
                            reports. GAO also noted that incidents of theft and fraud within
                            ASG did not prompt agencies to increase their monitoring or
                            their efforts to enforce the requirements of the Single Audit Act.

                            We identified the Department of Education, however, as one
                            federal agency that did take action. In September 2003, the
                            Department designated ASG a “high-risk grantee” under 34 CFR
                            80.12 because of major accountability problems stemming from
                            ASG’s inability to provide timely and complete single audits.
                            The Department of Education imposed sanctions that included
                            limiting draw downs to 50 percent of funds awarded until ASG
                            submitted documentation to substantiate expenditures and

9
  The only governing matter which Congress has withdrawn from the Secretary is the ability to amend the
Samoan Constitution. See (48 U.S.C. §1662a).
10
   For example, Exec. Order No. 8766, 6 Fed. Reg. 2741 (June 3, 1941) authorizes the Governor of
American Samoa to regulate immigration in American Samoa.
11
   American Samoa – Accountability for Key Federal Grants Needs Improvement – GAO-05-51, December
2004.


                                                  13
                  progress on the grant and requiring ASG to submit detailed
                  quarterly reports for Department of Education programs; certify
                  and attest, under penalty of federal law, to the accuracy and
                  completeness of the reports; and adopt transparent budgeting and
                  expenditure reporting that was available to the general public.

Recommendations
                  We recommend that the Governor of American Samoa and
                  Deputy Assistant Secretary, OIA:

                  1. Actively partner to develop a comprehensive fiscal reform
                     plan using the 1995 Recovery Plan as the framework. The
                     plan should include fiscal reforms for the entire government,
                     with clear benchmarks for measuring performance, to ensure
                     permanent financial stability.

                  2. Apply the best practices in Appendix 3 that have been
                     identified as critical for implementing major change and
                     transforming business cultures and practices.

                  We recommend that the Governor of American Samoa:

                  3. Ensure that the underlying financial system problems are
                     corrected, including:

                     a. Implementing procedural changes necessary to enable the
                        Treasurer’s office to produce timely CAFRs and single
                        audits,

                     b. Enforcing existing prohibitions against making or
                        authorizing expenditures in excess of appropriations, and

                     c. Establishing a comprehensive audit follow-up system and
                        implementing agreed-upon recommendations.

                  We recommend that the Deputy Assistant Secretary for Insular
                  Affairs:

                  4. Make greater use of existing authority as a means of ensuring
                     that ASG strengthens management controls and practices and
                     initiate appropriate and timely sanctions should ASG fail to
                     meet agreed-on fiscal reform goals and milestones. These
                     actions could include withholding grant monies, awarding
                     grants with special protective conditions, and arranging for
                     appropriate technical assistance.



                                     14
                5. Take the lead in coordinating efforts with other federal
                   agencies that provide financial assistance to ASG to ensure
                   accountability and resolve cross-cutting issues related to
                   management controls.

OIA and Governor Responses and OIG’s Reply
                With respect to the recommendations addressed to OIA, the
                July 12, 2005 response from the Deputy Assistant Secretary for
                Insular Affairs (Appendix 4) was sufficient for us to consider
                recommendations 1, 2, 4, and 5 resolved and implemented.
                OIA’s response agreed that top leadership commitment is
                necessary for the success of the partnership between the OIA and
                ASG to achieve fiscal reform and pledged continued
                commitment. The response stated that OIA is making
                considerable use of the tools available in order to keep the reform
                process moving forward and has recently designated ASG as a
                “high-risk” grantee under 43 CFR 12.52. The response also
                stated that OIA is aggressively monitoring the progress of the
                reform plan, has requested ASG to provide implementation steps
                for each measure that is not yet completed, increased reporting
                requirements, and restricted access to funds. In addition, OIA is
                determining if additional sanctions will help encourage
                completion of the actions necessary to remove the high-risk
                designation and bring ASG back into compliance with the MOA
                and fiscal reform plan. OIA is also developing a plan to identify
                the actions ASG must complete to remove the high-risk
                designation, which includes correction of the underlying
                financial system deficiencies. Further, OIA is coordinating
                closely with other federal agencies and expanding this
                coordination by convening a meeting of major federal grantors to
                discuss the administration of federal programs in American
                Samoa.

                The April 22, 2005 response from the Governor of American
                Samoa (Appendix 5) disagreed with our recommendations and,
                in summary, stated:

                     This ASG has already accomplished Fiscal Reform,
                     and has taken the steps recommended in this audit...
                     We continue to work to improve our services to the
                     public and to improve our financial management. I,
                     along with my entire administration, are committed to
                     this goal.




                                   15
The Governor’s viewpoint, however, is counter to the Deputy
Assistant Secretary’s June 9, 2005 letter to the Governor
(Appendix 6) that designated ASG as a “high-risk” grantee and
determined that ASG was in not in compliance with the MOA
and fiscal reform plan. The letter also specified the following
conditions that ASG must meet to remove the high-risk
designation:

   •   ASG shall have completed Single Audits by the statutory
       deadlines for the two most recent consecutive years,
       resulting in opinions that are not disclaimed and do not
       contain material qualifications.

   •   ASG shall have a balanced budget as confirmed by
       independent auditors for the two most recent consecutive
       years, without regard for nonrecurring windfalls, such as
       insurance settlements.

   •   ASG shall be in substantial compliance with the MOA
       and fiscal reform plan.

Therefore, despite OIA taking decisive and aggressive actions to
closely monitor and oversight ASG’s progress in meeting the
requirements of the Reform Plan and related agreements, we are
considering Recommendations 1, 2, and 3, addressed to the
Governor, as unresolved. Appendix 7 describes the additional
information that the Governor should provide in order to close
out these recommendations. The status of all audit
recommendations is shown in Appendix 7.




                   16
Appendix 1
Objective, Scope, Methodology, and Prior Audit
Coverage
             The objective of our audit was to determine whether ASG
             implemented the 2001 Reform Plan and related agreements. We
             conducted our audit from October 2003 to September 2004 in
             accordance with the Government Auditing Standards, issued by
             the Comptroller General of the United States. Accordingly, we
             included such tests of records and other auditing procedures that
             were considered necessary under the circumstances. To
             accomplish our objective, we:

             ¾ Evaluated the actions taken by OIA and ASG to develop and
               implement the 2001 Reform Plan.

             ¾ Obtained and reviewed the 2001 Reform Plan and related
               documents, financial and budgetary reports, internal and
               external audit reports, operations grant agreement, federal
               loan agreement, and other relevant documents.

             ¾ Interviewed officials from OIA Headquarters and ASG.

             ¾ Selected key performance standards from the 2001 Reform
               Plan and assessed ASG’s progress in these areas, which
               included:

                o Completion of audited financial statements and single
                  audits,

                o Implementation of revenue enhancing and cost-saving
                  measures, and

                o Discharge of debts with federal loan proceeds.

             ¾ Reviewed GAO Report, Results-Oriented Cultures –
               Implementation Steps to Assist Mergers and Organizational
               Transformations, dated July 2003 (GAO-03-669) to identify
               best practices used by organizations that had successfully
               undergone major organizational change. We compared best
               practices identified by GAO with the practices used by ASG
               in developing and implementing its 2001 Reform Plan to
               identify practices ASG should adopt to ensure financial
               stability for the long term.



                                17
¾ Identified internal control weaknesses, which are discussed in
  the Results of Audit section of this report. Our
  recommendations, if implemented, should improve the
  internal controls in these areas.

¾ Reviewed the Department of the Interior’s Report on
  Performance and Accountability for fiscal year 2003,
  including information required by the Federal Manager’s
  Financial Integrity Act, and OIA’s annual assurance
  statements on management controls. We found that OIA
  identified the need for insular area governments to increase
  self-sufficiency by improving financial management
  practices, increasing economic development, and increasing
  federal responsiveness to the unique needs of the island
  communities.

¾ Reviewed the following prior audit coverage related to or
  applicable to ASG:

   o June 2004, Single Audit Report In Accordance with OMB
     Circular A-133 for FY 2001. The independent public
     accountant issued a qualified opinion on ASG’s financial
     statements and single audit for fiscal year 2001 because
     they were unable to satisfy themselves as to the
     following: (1) accuracy of the beginning general fund
     balance, (2) amount of compensated absences, claims,
     and other liabilities, (3) amounts due to/from other funds,
     (4) amounts due from other governments and advances
     from grantors, (5) physical existence and cost of fixed
     assets, (6) financial position and activity of the American
     Samoa Telecommunication Authority and Medical
     Center, and (7) amounts due from other governments and
     advances from grantors of the American Samoa
     Community College.

   o September 2003, Report on Grants Administered by the
     Office of Insular Affairs (OIG No. 2003-I-0071). The
     report focused on the need for OIA to improve
     monitoring of grants to Insular Area governments. The
     weaknesses in grant oversight contributed to project
     delays and waste of federal monies intended to improve
     Insular Area governments.

   o August 2003, Single Audit Report In Accordance with
     OMB Circular A-133 for FYs 1998 to 2000. The
     independent public accountant disclaimed an opinion on



                  18
       ASG’s financial statements and single audits for fiscal
       years 1998, 1999, and 2000. The disclaimer was issued
       as a result of significant findings, questioned costs, and
       deficiencies in the internal control structure.

   o July 2003, Results-Oriented Cultures: Implementation
     Steps to Assist Mergers and Organizational
     Transformations (GAO-03-669). The report identified
     key practices that were consistently found at the center of
     successful organizational transformations.

   o March 2002, Management Challenges for Insular Area
     Governments – An Opportunity for Improvement (OIG
     No. 2002-I-0017). The report identified ASG’s financial
     management problems as a major management challenge
     and cited opportunities for improvement in financial
     management, revenue enhancement, expenditure control,
     and program operations.

   o November 2001, Assessment and Collection of Taxes
     (OIG No. 2002-I-0003). The report stated that ASG was
     not effective in administering and collecting income
     taxes, which resulted in at least $7.1 million in potential
     tax revenues not being collected from fiscal years 1997 to
     1999.

   o April 1992, Inadequate Management and Oversight
     Contribute to Financial Problems (GAO/NSIAD-92-64).
     The report stated that ASG’s financial condition had
     deteriorated rapidly from fiscal years 1986 to 1991, tax
     revenues were difficult to predict, collection efforts were
     inadequate, and poor financial management practices had
     resulted in excess expenditures. In addition, OIA had not
     enforced conditions of the operations grant.

We did not evaluate whether the $4.3 million authorized to
implement fiscal reform was used appropriately because we
considered OIA’s coverage of this area to be sufficient. The
MOA outlined authorized fiscal reform expenditures. We found
that OIA reviewed supporting documents and concluded that
ASG substantially used the $4.3 million as intended. ASG hired
additional accounting staff, awarded a contract to an independent
public accounting firm to perform financial statements and single
audits, and upgraded the Treasury’s financial systems. OIA is
following up on some minor items that may not have been
justified under the MOA.



                   19
Appendix 2
Chronology of ASG Fiscal Reform Efforts


                                  Fiscal Reform Effort

      1988
      To address rising budget deficits, ASG developed, but failed to implement, a
      fiscal recovery plan. Result:

             ¾ Overruns of $4.7 million in fiscal year 1989 because of unbudgeted
                government pay raises and hiring.
             ¾ A deficit of $17.6 million by fiscal year 1990 (up from a deficit of
               about $500,000 in fiscal year 1987).

      1990
      ASG developed, but failed to implement, a fiscal recovery plan. The resulting
      deficit spending forced ASG to:

             ¾ Borrow $5 million from its Employees’ Retirement Fund.
             ¾ Temporarily place government employees on a 36-hour workweek.
             ¾ Overdraw its checking account by about $1.6 million.

      1995
      ASG, as part of a Joint Working Group of OIA and contractor staff, developed a
      Recovery Plan, based on a 1992 GAO report of ASG’s financial problems. The
      plan was not fully implemented because top management did not follow
      through. Result:

             ¾ ASG could not pay outstanding debts, including amounts owed to
               off-island medical providers.

      In 1997, Congress authorized OIA to withhold $2 million in capital
      improvement funding until the plan had been substantially implemented. As of
      September 2004, OIA had not released the $2 million.




                                              20
Appendix 3
GAO Key Practices and Implementation Steps

                   Practice                                      Implementation Step

Ensure top leadership drives the                       •   Define and articulate a distinct and
transformation                                             compelling reason for change
                                                       •   Balance continued delivery of services
                                                           with transformation activities
Establish a coherent mission and integrated            •   Adopt leading practices for results-
strategic goals to guide the transformation                oriented strategic planning and reporting
Focus on a key set of principles and priorities        •   Embed core values in every aspect of the
at the outset of the transformation                        organization to reinforce the new culture
Set implementation goals and a timeline to             •   Make public implementation goals and
build momentum and show progress from day                  timeline
one                                                    •   Seek and monitor employee attitudes and
                                                           take appropriate follow-up actions
                                                       •   Attract and retain key talent
Dedicate an implementation team to manage              •   Establish networks to support
the transformation process                                 implementation team
                                                       •   Select high-performing team members
Use the performance management system to               •   Adopt leading practices to implement
define responsibility and ensure accountability            effective performance management
for change                                                 systems with adequate safeguards
Establish a communication strategy to create           •   Communicate early and often to build
shared expectations and report related progress            trust
                                                       •   Ensure consistency of message
                                                       •   Encourage two-way communication
                                                       •   Provide information to meet specific
                                                           needs of employees
Involve employees to obtain their ideas and            •   Use employee teams
gain their ownership for the transformation            •   Involve employees in planning and
                                                           sharing performance information
                                                       •   Incorporate employee feedback into new
                                                           policies and procedures
                                                       •   Delegate authority to appropriate
                                                           organizational levels
Build a world-class organization                       •   Adopt leading practices to build a world-
                                                           class organization

Source: GAO - Results-Oriented Cultures: Organizational Steps to Assist Mergers and Organizational
        Transformations, GAO-03-669, July 2003




                                                  21
22
23
24
25
26
     27




27
28
29
30
31
32
33
Appendix 7
Status of Audit Recommendations

   Recommendations                 Status                 Action Required
With Respect to OIA

  1, 2, 4, and 5          Resolved and Implemented   No further response to the
                                                     Office of Inspector General
                                                     is required.
With Respect to the Governor of American Samoa

  1, 2, and 3             Unresolved                 In light of ASG being
                                                     designated a “high-risk”
                                                     grantee, provide a response
                                                     that expresses concurrence
                                                     or nonconcurrence with
                                                     each recommendation. If
                                                     concurrence is indicated,
                                                     provide a plan of action
                                                     that includes target dates
                                                     and the titles of the
                                                     officials responsible for
                                                     implementing corrective
                                                     action. If nonconcurrence
                                                     is indicated, provide the
                                                     reason for nonconcurrence
                                                     and a plan of action that
                                                     includes alternative
                                                     corrective action and target
                                                     dates for addressing the
                                                     underlying deficiencies.




                                       25
                                       34
